No. 20-305

In the Supreme Court of the United States
PLANNED PARENTHOOD CENTER FOR CHOICE, et al.,
Petitioners,
v.
GREG ABBOTT, in his official capacity as Governor of Texas, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE WITH WORD COUNT LIMITATIONS

I, Julie A. Murray, counsel for petitioners and a member of the Bar of this
Court, certify that Petitioners’ Reply Brief in Support of Certiorari contains 2,945
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
/s/ Julie A. Murray
Julie A. Murray
Counsel for Petitioners
December 7, 2020

